                                                               NATIONAL SCIENCE FOUNDATION
                                                                OFFICE OF INSPECTOR GENERAL
                                                                  OFFICE OF INVESTIGATIONS

                                                       CLOSEOUT MEMORANDUM

         Case Number: AI0090075                                                                     Page 1 of 1



                         A reviewer 1 self-disclosed a concern to an NSF Program Officer that she felt may lead to
i   '
                 questioning of the impartiality of the review of a proposal submitted to NSF? The Program
                 Officer subsequently entered a conflict for this reviewer, and the review was not used in
                 assessing the proposal. No allegation follows from this disclosure.

                           Accordingly, this case is closed.




        NSF OIG Form 2 (11102)
